Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   SOUTHEASTERN TIDEWATER
OPPORTUNITY PROJECT, INC., HEAD
    START PROGRAM CLAIMED
 UNALLOWABLE COSTS FOR GRANT
  YEAR APRIL 1, 2010, THROUGH
        MARCH 31, 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky
                                               Regional Inspector General

                                                      February 2013
                                                      A-03-11-00501
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY
BACKGROUND
Head Start is a national program that provides grants to local public and private nonprofit and
for-profit agencies to provide comprehensive child development services to economically
disadvantaged children and families. Head Start programs focus on helping preschoolers
develop the early reading and math skills needed to be successful in school. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Head Start, administers the Head Start program.
The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion for the Head Start program during fiscal
years 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.
The Southeastern Tidewater Opportunity Project, Inc. (STOP), a nonprofit organization, was
created in 1965. STOP had Head Start classrooms in 34 locations to serve approximately 1,500
economically disadvantaged preschool children. For the audited grant year (April 1, 2010,
through March 31, 2011), ACF awarded $11,594,065 to the STOP Head Start program, which
accounted for 80 percent of STOP’s Head Start budget. The remaining 20 percent of STOP’s
budget consisted of in-kind contributions of goods and services. In addition, the STOP Head
Start program received $769,066 in Recovery Act grant funding for the period June 1, 2009,
through September 30, 2010.
On February 26, 2011, a month before the end of the grant year, STOP relinquished its Head
Start program due to insolvency. Accordingly, the Office of Head Start requested that we audit
the STOP Head Start program.

OBJECTIVE
Our objective was to determine whether costs claimed by STOP were allowable under the terms
of its grants and applicable Federal laws and regulations.
SUMMARY OF FINDINGS
Of the $11,594,065 that STOP claimed under its Head Start grant, $10,867,319 was allowable.
STOP recorded unallowable expenditures totaling $949,399: $807,861 for costs incurred prior to
the award period, $120,161 for improperly allocated fringe benefit costs, $15,768 for costs that
were not supported by source documentation, and $5,609 in duplicate costs. However, because
its total recorded Head Start expenditures exceeded the amount of the Head Start grant by
$222,653, only $726,746 of the unallowable expenditures was reimbursed by the Federal
Government. The $203,238 that STOP claimed under a separate Recovery Act grant was
allowable.
Because of deficiencies in financial management and financial governance, STOP used Head
Start funds from the grant period we examined to pay for expenditures incurred in prior grant
periods and, in some cases, for expenditures incurred by other programs. As a result, STOP

                                                i
exceeded its available funding for its Head Start program, became insolvent, and had to
relinquish its program.

RECOMMENDATION
We recommend that ACF require STOP to refund to the Federal Government $726,746 related to
the Head Start grant.

SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC., COMMENTS
In written comments on our draft report, STOP did not concur with our recommendation and
requested that unallowable costs be reduced by allowable costs it had not claimed. STOP
provided additional information about its accounting of Head Start funds and said that it had
taken steps to improve its financial management. STOP submitted documentation for $375,725
of “substitute and additional costs” to offset costs disallowed in the report. STOP also requested
that grant closeout costs that STOP submitted to ACF be used to offset the disallowance.

OFFICE OF INSPECTOR GENERAL RESPONSE
We clarified our discussion of STOP’s financial management based on the additional
information provided. We reviewed the documentation for $375,725 of substitute and additional
costs that STOP submitted to offset the disallowed costs. Of that amount, STOP had previously
claimed $277,108, which we reviewed during our audit. At that time we allowed $275,902, and
disallowed $1,206 of these costs. Because STOP provided a receipt supporting $1,206 that we
had disallowed, we have adjusted our finding and recommendation to allow that amount as well.
We did not audit STOP’s claim for the remaining $98,617 of additional costs and offer no
opinion on its validity. We also did not audit STOP’s grant closeout costs and offer no opinion
on them.
We maintain the validity of our recommendation, as well as our conclusion that STOP claimed
unallowable costs.

OFFICE OF HEAD START COMMENTS
In written comments on our draft report, the Office of Head Start concurred with our findings
and recommendation and described the action it had taken, or planned to take, to address them.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Southeastern Tidewater Opportunity Project, Inc. .............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1
               Objective ............................................................................................................1
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION ............................................................................3

          UNALLOWABLE COSTS CLAIMED ........................................................................3
              Prior Period Costs Claimed................................................................................3
              Unallocable Fringe Benefit Costs Claimed........................................................5
              Unsupported Costs Claimed .............................................................................5
              Duplicate Costs Claimed....................................................................................5

          FINANCIAL MANAGEMENT ...................................................................................6

          FINANCIAL GOVERNANCE .....................................................................................6

          RECOMMENDATION .................................................................................................7

          SOUTHEASTERN TIDEWATER OPPORTUNITY
           PROJECT, INC., COMMENTS .................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................7

          OFFICE OF HEAD START COMMENTS ..................................................................7

APPENDIXES

          A: SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC., SCHEDULE
             OF HEAD START GRANT EXPENDITURES RECORDED FOR THE PERIOD
             APRIL 1, 2010, THROUGH FEBRUARY 28, 2011, AND RESULTS OF AUDIT

          B: SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC., COMMENTS
          C: OFFICE OF HEAD START COMMENTS


                                                                    iii
                                      INTRODUCTION
BACKGROUND

Head Start Program
Head Start is a national program that provides grants to local public and private nonprofit and
for-profit agencies to provide comprehensive child development services to economically
disadvantaged children and families. Head Start programs focus on helping preschoolers
develop the early reading and math skills needed to be successful in school. Head Start
programs engage parents in their children’s learning and emphasize parental involvement in the
administration of local Head Start programs. Within the U.S. Department of Health and Human
Services, the Administration for Children and Families (ACF), Office of Head Start, administers
the Head Start program.
The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion for the Head Start program during fiscal
years 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.

Southeastern Tidewater Opportunity Project, Inc.
The Southeastern Tidewater Opportunity Project, Inc. (STOP), a nonprofit organization created
in 1965, was governed by a 25-member volunteer Board of Directors (Board) consisting of area
residents, business and civic leaders, and elected officials or their designees. STOP had Head
Start classrooms in 34 locations to serve approximately 1,500 economically disadvantaged
preschool children.
For the audited grant year (April 1, 2010, through March 31, 2011), ACF awarded $11,594,065
to the STOP Head Start program, which accounted for 80 percent of STOP’s Head Start budget.
The remaining 20 percent of STOP’s budget consisted of in-kind contributions of goods and
services. In addition, the STOP Head Start program received $769,066 in Recovery Act grant
funding for the period June 1, 2009, through September 30, 2010.
On February 26, 2011, a month before the end of the audited grant year, STOP relinquished its
Head Start program due to insolvency. On February 28, 2011, the Office of Head Start
appointed the Community Development Institute as interim grantee to avoid an interruption of
services in the Head Start program.
ACF requested that we perform this review. The report is intended for use by the Grants Officer
to assist in closing out the grant.

OBJECTIVE, SCOPE AND METHODOLOGY
Objective
Our objective was to determine whether costs claimed by STOP were allowable under the terms
of its grants and applicable Federal laws and regulations.

                                               1
Scope
We reviewed the STOP Head Start program’s recorded expenditures and financial governance
for the period April 1, 2010, through February 28, 2011. During that period, STOP recorded
expenditures totaling $11,816,718 for the regular grant, but was able to claim reimbursement
only for $11,594,065 (the amount of the award). We also reviewed $203,238 in Recovery Act
funds that STOP’s Head Start program claimed during the audit period.
STOP’s grant closeout costs were outside the scope of our audit. Because STOP relinquished the
Head Start program due to insolvency, we did not perform an overall assessment of the STOP
Head Start program’s internal control structure.
We performed our fieldwork at the STOP administrative offices in Norfolk, Virginia, and at its
independent auditor’s office in Roanoke, Virginia, from June through September 2011.

Methodology
To accomplish our objective, we:

     •   reviewed relevant Federal laws, regulations, and guidance;

     •   compared approved budgeted costs to actual costs to identify variances contributing to
         STOP’s insolvency;

     •   reviewed the workpapers and the Office of Management and Budget (OMB) Circular
         A-133 audit report for the year ended June 2010 and the subsequent revised report
         expressing an adverse opinion for the same year;

     •   analyzed source documentation to determine the allowability of salaries, fringe
         benefits, supplies and other costs recorded during the audit period;

     •   reviewed journal entries to identify period-end adjustments;

     •   verified that STOP’s drawdowns did not exceed the Federal drawdown limits;

     •   reviewed the available minutes of the Board meetings for the period April 1, 2010,
         through March 31, 2011, to evaluate the Board’s monitoring of STOP’s fiscal
         performance;

     •   interviewed current and former members of STOP’s financial management team and
         the chairman of the Board to gain an understanding of STOP’s policies, procedures, and
         internal controls relating to financial management; and

     •   interviewed Office of Head Start staff responsible for monitoring the STOP Head Start
         program.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

                                               2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.
                                  FINDINGS AND RECOMMENDATION
Of the $11,594,065 that STOP claimed under its Head Start grant, $10,867,319 was allowable.
STOP recorded unallowable expenditures totaling $949,399: $807,861 for costs incurred prior to
the award period, $120,161 for improperly allocated fringe benefit costs, $15,768 for costs that
were not supported by source documentation, and $5,609 in duplicate costs. However, because
its total recorded Head Start expenditures exceeded the amount of the Head Start grant by
$222,653, only $726,746 of unallowable expenditures was reimbursed by the Federal
Government. The $203,238 that STOP claimed under a separate Recovery Act grant was
allowable.
Because of deficiencies in financial management and financial governance, STOP used Head
Start funds from the grant period we examined to pay for expenditures incurred in prior grant
periods and, in some cases, for expenditures incurred by other programs. As a result, STOP
exceeded its available funding for its Head Start program, became insolvent, and had to
relinquish its program.

UNALLOWABLE COSTS CLAIMED
STOP recorded unallowable expenditures totaling $949,399: $807,861 for costs incurred prior to
the award period, $120,161 for improperly allocated fringe benefit costs, $15,768 for costs that
were not supported by source documentation, and $5,609 in duplicate payments.

Prior Period Costs Claimed
Federal administrative requirements (45 CFR § 74.28) state that ”[w]here a funding period is
specified, a grantee may charge only allowable costs resulting from obligations incurred during
the funding period and any pre-award costs authorized by the HHS awarding agency ….” 1 Head
Start further clarifies that:
           Grantee agencies are not allowed to obligate more grant funds in one year than
           they were actually awarded, with the expectation of paying the excess amount
           with the following year’s Head Start grant funds. If a grantee agency does
           obligate itself for more debt than it has grant funds to cover, then the grantee must
           use agency funds or sources of funding to pay the excess. They may not use Head
           Start grant funds. 2
Prior Period Salaries and Wages
STOP recorded two transactions for salaries and wages that were unallowable because the costs
were incurred in the grant year ended March 31, 2010. On June 30, 2010, STOP transferred
$381,371 in salaries for food services staff from a United States Department of Agriculture

1
    The Office of Head Start did not authorize any pre-award costs for the audited grant year.
2
    Head Start, “Obligation and Expenditure of Funds,” accessed at http://eclkc.ohs.acf.hhs.gov on February 15, 2013.

                                                            3
(USDA) food grant to the Head Start grant covering the period April 1, 2010, to March 30, 2011.
Food service staff salaries are an allowable Head Start cost; however, only $70,656 was incurred
during the audited grant year. The remaining $310,715 was incurred during the prior grant year
(April 1, 2009, to March 31, 2010). STOP transferred these costs to the Head Start program
grant because its costs under the USDA grant award exceeded the amount of the award.
Also on June 30, 2010, STOP improperly transferred to the audited grant year $194,807 in
salaries related to certain quality initiatives payable in the prior grant year.
Prior Period Fringe Benefits Costs
STOP recorded two transactions that effectively moved fringe benefit costs incurred in the grant
year ended March 31, 2010, to the audited grant year.
On April 1, 2010, STOP transferred to the audited grant year $122,020 in unallowable prior-year
costs. Because its Head Start program was on summer break during July and August 2010,
STOP included pro-rated portions of July and August 2010 health and dental insurance
premiums in the premium payments that it made throughout the ten-month school year. From
the beginning of the school year (September 2009) through the end of the prior grant period
(March 2010), STOP recorded $1,250,215 in expenditures for health and dental premiums. On
April 1, 2010, the first day of the audited grant year, STOP transferred $330,431 to the grant.
According to a former STOP official, 3 this amount represented the portion of July and August
health and dental insurance premiums paid between September 2009 and March 2010. Costs
allocable to the audited grant year are allowable. However, STOP did not provide any details for
how it calculated the portion of July and August premiums. Based on our calculation, the pro-
rated portion of July and August premiums should have been $208,411 ($1,250,215 x 16.67
percent 4). Therefore, we concluded that $122,020 of the $330,431 that STOP transferred to the
grant on April 1, 2010, was unallowable.
On June 30, 2010, STOP recorded expenditures of $163,444 that included $152,052 for various
other fringe benefit costs incurred prior to the audited grant year.
Prior Period “Other” Costs
In April and May of 2010, STOP charged to the audited grant year $27,482 for other costs that
were unallowable because the costs were incurred from January through March 2010, during the
prior grant year. These unallowable costs involved 42 invoices from 27 vendors and thus were
not isolated errors. For example, on April 14, 2010, STOP recorded a $118 expenditure for
telephone costs incurred for February 2010, prior to the start of the audited grant year.
Prior Period Costs for Supplies
STOP charged three transactions for supplies totaling $785 that were unallowable because the
costs were incurred in the prior grant year. For example, on April 14, 2010, STOP charged to the

3
 Because the Head Start program had been discontinued, most officials involved in the program were no longer
employed by STOP.
4
 This percentage reflects 2/12ths of the recorded premiums, the prorated amount required in each month of the
school year to prepay the July and August premiums.

                                                         4
grant $574 to replace two Head Start laser jet printers that shipped and invoiced in March 2010,
prior to the audited grant year.

Unallocable Fringe Benefit Costs Claimed
Federal cost principles (2 CFR part 230, App. A, § A.2.a 5) require that to be an allowable cost
under an award, a cost must be reasonable for the performance of the award and allocable to the
award. Further, a cost is “allocable to a particular cost objective … in accordance with the
relative benefits received” (2 CFR part 230, App. A, § A.4.a). In addition, “[a]ny cost allocable
to a particular award … may not be shifted to other Federal awards to overcome funding
deficiencies….” (2 CFR part 230, App. A., § A.4.b).
STOP claimed $120,161 in unallowable health and dental insurance premiums for July and
August 2011. Because the Head Start program did not operate during July and August, STOP
included a portion of the health and dental insurance premiums for those months in its
expenditures for premiums recorded during the ten-month school year. From September 2010
through February 2011, STOP recorded expenditures totaling $720,823 for health and dental
insurance that included prepayments for a portion of the premiums for July and August 2011,
which fell after the end of the audited grant year.
When STOP relinquished the Head Start program due to insolvency, it should have recorded an
adjustment to decrease its expenditures for health and dental insurance premiums by the amount
of the prepayments for July and August 2011. However, STOP did not calculate the portion of
expenditures for health and dental insurance that were prepaid for the July and August
premiums. We estimated the unallowable costs as 16.67 percent 6 of the expenditures for health
and dental premiums recorded between September 2010 and February 2011. Based on our
calculation, $120,161 ($720,823 x 16.67 percent) was unallowable because it represented costs
incurred for a period that was not covered by the grant.

Unsupported Costs Claimed
Federal cost principles (2 CFR part 230, App. A, § A.2.g) require that costs be adequately
documented to be allowable under an award. Grantees’ financial management systems must
provide for accounting records, including cost accounting records, that are supported by source
documentation (45 CFR § 74.21(b)(7)).
STOP did not provide adequate source documentation to support 12 transactions totaling
$15,768 for various “Other” claimed costs. These transactions related to invoices from 11
vendors and thus were not isolated errors.

Duplicate Costs Claimed
Federal cost principles (2 CFR part 230, App. A, § A.2) state that, to be allowable under an
award, costs must be reasonable for the performance of the award. A cost is reasonable if, in its

5
    OMB Circular A-122, Cost Principles for Non-Profit Organizations, was relocated to 2 CFR part 230.
6
 This percentage reflects 2/12ths of the recorded premiums, the prorated amount required in each month of the
school year to prepay the July and August premiums.


                                                         5
nature and amount, it does not exceed that which would be incurred by a prudent person under
the circumstances prevailing at the time the decision was made to incur the costs (2 CFR part
230, App. A, § A.3).
STOP claimed duplicate costs totaling $5,609: $3,806 for an invoice for dental coverage paid on
two separate occasions and $1,803 for an invoice for security services paid on two separate
occasions. During the audit, we informed STOP of the duplicate payments. STOP agreed to
contact the vendors to request refunds of the duplicate payments.

FINANCIAL MANAGEMENT
Federal standards for financial management systems (45 CFR § 74.21(b)(3)) require that
recipients' financial management systems provide for effective control over and accountability
for all funds, property and other assets.
STOP’s financial management system did not provide for effective control over and
accountability for Head Start funds awarded for the audited grant year. We found that, when
costs exceeded available funding for other, non-Head Start programs, STOP used funding from
the Head Start program to cover those costs until appropriate funds could be obtained. For
example, STOP maintained a joint bank account for Head Start and Community Economic
Development grants and had a procedure that identified grant funds by award number in the
accounting system. However, documentation showed that on April 23, 2010, STOP used
$133,000 of Head Start funds from the account to cover Community Economic Development
program costs until April 26, 2010, when funds could be drawn down from the Community
Economic Development program grant. A former STOP official said that STOP transferred or
“moved” expenditures from grant year to grant year and from program to program to manage
cash flows.
Because STOP used the Head Start grant funds to pay costs of other grant years and other
programs, its expenditures exceeded the available funding for its Head Start program and STOP
had to relinquish its program.

FINANCIAL GOVERNANCE
Section 642(c) of the Head Start Act requires that grantees establish and maintain a formal
structure for program governance, including a governing body with legal and fiscal responsibility
for administering and overseeing the Head Start agency, including the safeguarding of Federal
funds. The governing body is responsible for reviewing financial audits and the grantee’s
progress in carrying out the programmatic and fiscal responsibilities described in the grant
application. Section 642 (d)(2) requires grantees to ensure the sharing of accurate and regular
information, including monthly financial statements and the financial audit, for use by the
governing body.
STOP’s Board did not adequately monitor financial management practices. The chairman of the
finance committee 7 stated he had shredded all of the minutes of the finance committee meetings
generated during the grant term. As a result, the Board lacked evidence of its financial
governance. However, the Board took no action to prevent STOP from using funds from the

7
    The chairman left the board when STOP relinquished its program.

                                                         6
grant year beginning April 1, 2010, to pay for expenses related to the prior year grant or to cover
costs for unrelated programs.
The approved minutes of the Board meetings included monthly Overview Summary Expenditure
Reports that reflected overspending of the Head Start grant. However, the minutes did not show
any actions by the Board to safeguard against the overspending of the authorized budget included
in the terms of the awarded Head Start grant for the year ended March 31, 2011. By the end of
February 2011, a month before grant yearend, STOP had overspent its authorized budget by
$222,653 and could not continue operations.

RECOMMENDATION
We recommend that ACF require STOP to refund to the Federal Government $726,746 related to
the Head Start grant.

SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC., COMMENTS
In written comments on our draft report, STOP did not concur with our recommendation and
requested that unallowable costs be reduced by allowable costs it had not claimed. STOP
provided additional information about its accounting of Head Start funds and said that it had
taken steps to improve its financial management. STOP submitted documentation for $375,725
of “substitute and additional costs” to offset costs disallowed in the report. STOP also requested
that grant closeout costs that STOP submitted to ACF be used to offset the disallowance.
STOP’s comments are included as Appendix B. We redacted STOP’s comments and did not
include the attachments accompanying them because they contained confidential financial
information.

OFFICE OF INSPECTOR GENERAL RESPONSE
We clarified our discussion of STOP’s financial management based on the additional
information provided. We reviewed the documentation for $375,725 of substitute and additional
costs that STOP submitted to offset the disallowed costs. Of that amount, STOP had previously
claimed $277,108, which we reviewed during our audit. At that time we allowed $275,902, and
disallowed $1,206 of these costs. Because STOP provided a receipt supporting $1,206 that we
had disallowed, we have adjusted our finding and recommendation to allow that amount as well.
We did not audit STOP’s claim for the remaining $98,617 of additional costs and offer no
opinion on its validity. We also did not audit STOP’s grant closeout costs and offer no opinion
on them.
We maintain the validity of our recommendation, as well as our conclusion that STOP claimed
unallowable costs.

OFFICE OF HEAD START COMMENTS
In written comments on our draft report, the Office of Head Start concurred with our findings
and recommendation and described the action it had taken, or planned to take, to address them.
The Office of Head Start’s comments are included in their entirety as Appendix C.



                                                 7
APPENDIXES
   APPENDIX A: SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC.,
       SCHEDULE OF HEAD START GRANT EXPENDITURES RECORDED
        FOR THE PERIOD APRIL 1, 2010, THROUGH FEBRUARY 28, 2011,
                        AND RESULTS OF AUDIT

Budgetary
Category        Awarded       Recorded     Unallowable   Allowable
Salaries        $6,422,825    $6,108,839     $505,522    $5,603,317
Fringe           2,690,376     2,886,131      398,039     2,488,092
Benefits
Supplies           143,420        90,165          785         89,380
Other            2,337,444     2,731,583       45,053      2,686,530
Subtotal       $11,594,065   $11,816,718     $949,399    $10,867,319
Expenditures                                (-222,653)
Exceeding
Awarded
   Totals      $11,594,065   $11,816,718     $726,746    $10,867,319
                                                                                                                 Page 1 of 7


APPENDIX B: SOUTHEASTERN TIDEWATER OPPORTUNITY PROJECT, INC., COMMENTS




       OFFICIAL RESPONSE TO DRAFT REPORT FROM U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES,
                    OFFICE OF INSPECTOR GENERAL (REPORT NUMBER A-03-11-00501)

       ORGANIZATIONAL PROFILE

       The STOP Organization-Hampton Roads (STOP) is a 501 (c) (3) non-profit community action agency
       operating in South Hampton Roads for more than 47 years. STOP operates several programs and services
       and currently has over 50 employees. Over the past 47 years, STOP has been at the forefront of providing
       support and capacity enhancement for individuals and families throughout South Hampton Roads. As a
       result of some major previous leadership issues and financial challenges, STOP voluntarily relinquished its
       Head Start program effective March 1, 2011 and is currently in the process of reconstituting itself under
       new administrative leadership and improved Board governance and oversight. The STOP Board of
       Directors, at its regular meeting held on Tuesday, July 17. 2012 , approved and authorized the submission
       of the following response to the draft OIG audit report:

                       Respectfully submitted and mailed, via Federal Express, on August 1, 2012

                         _6w.._rgg. f. 'Rggd                              l?qJ!na P. i.aHwMe
                         George F. Reed, Chairman                         Regina P.lawrence
                          STOP Board of Directors                          President and CEO




      The Department of Health and Human Services' Office of Inspector General (OIG) is recommending, in its
      draft audit report, "that ACF require STOP to refund the Federal Government $727,952 related to the
      Head Start grant."

       For the reasons stated below, STOP does not concur with the recommendation and also requests any
       expenditures found to be unallowable be reduced by the amount of allowable costs incurred by STOP;
       all for which it did not claim Federal funding.

      Section 1: STATEMENT OF NON-<;QNCURRENCE

      We are in receipt of your email correspondence dated June 29, 2012 and the attached draft report
      detailing the claimed unallowable cost. After reviewing this report and based upon the instructions
      contained therein, The STOP Board of Directors, President and CEO and Financial Staff do not concur with
      the information reported on page 6, under the Section entitled, Financial Management which reads, "We
      found that when cost exceeded available funding for a program, STOP transferred expenses to other
      program. For example, documentation showed that on April 23, 2010, STOP transferred $133,000 from a
      Head Start account to cover excess cost for a community economic development program. STOP
      anticipated no further funding for the community economic development program. A former STOP
      official said that STOP transferred or "moved" expenditures from grant year to grant year and from
      program to program to manage cash flows. Because STOP used the Head Start grant funds to pay cost of
      other grant years and other programs, its expenditures exceeded the available funding for its Head Start
      program and STOP had to relinquish its program."
                                                                                                          Page 2 of 7


STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-ll-00501

Response: Reason for Non-Concurrence

STOP was awarded a three-year (September 30, 2009-September 29, 2012), Community Economic
Development (CED) Grant by the U. S. Department of Health and Human Services (HHS) in the amount of
$574,800. A total of $ 422,000 of the grant funds were expended in 2010 with the remaining $152,800
expended in 2011. The third year of the grant was un-funded and structured to attain financial
sustainability. Based upon the financial reconciliation of the CED grant conducted by the current Finance
Department staff in February 2012, it was determined that the bank withdrawal in question totaling
$133,000 was an amount allocated specifically to pay for CED expenditures. Direct disbursement check
number           dated April 23, 2010, in the amount of $133,000, made payable to "STOP Disbursing
Account" is included in the reconciliation as a deposit into STOP's Main Operating Account. This particular
check does not specifically denote the CED grant for which payment was made; however, the source
documentation is provided as Attachment 1.

The original bank account was established for Head Start; however, when STOP was awarded the CED
grant, which was also funded by HHS, the CED grant dollars were deposited into the existing account
originally designated for Head Start. The funding source was the same for Head Start and CED and they
both shared the same bank account.

Although the bank account was the same, each grant had a distinctive award number which identified
account activity. It was established by the current Finance Staff that all the dollars which were drawn
from the one account, with the distinctive grant award number for CED activity, total the amount of the
CED grant award dollars which includes the $133,000 in question.

The process previously used to cover Head Start and CED expenditures from the STOP/HHS bank account,
which housed both the Head Start and CED grant dollars, was as follows:

        (1) 	 Disbursement checks, for either Head Start or CED, were made payable to 

             STOP and were processed from the STOP/HHS bank account for the 

             applicable grant 


        (2) 	 STOP deposited the checks into the STOP Main Operating Account

        (3) 	 Checks were processed from STOP's Main Operating Account to cover 

              expenditures incurred by either Head Start or CED, as designated by 

              distinctive award number 


Statement of Alternative Action Taken or Planned

Effective March 31, 2011, STOP's current President and CEO terminated the employment of individuals
previously associated with the Finance Department.

All Finance and Administrative staff are now required to attend, at minimum, annual financial
management training for non-profits from reputable trainers to include Chief Financial Officers
from "sister" Community Action Agencies (CANs). STOP's President and CEO requested initial
training and technical assistance for STOP's Finance staff from two well respected CAA's within

                                                    2

                                                                                                             Page 3 of 7


STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-11-00501



the State. The Chief Financial Officers from these agencies agreed to provide initial training to
STOP's Finance staff. The Administrator for Financial Services and the primary Accountant have
both participated in numerous webinars and trainings regarding "best practices" in the financial
management of non-profits.

From October 2011 through January 2012, with a grant received from the Virginia Association of
Community Action Programs (VACAP), STOP received in-depth, on-site financial management training
and technical assistance from a Financial Consultant who is one of the most well respected Chief Financial
Officers in Virginia's network of community action agencies.

The STOP Board of Directors met on January 24, 2012 and based upon STOP's continuing need, the
President and CEO requested and received a "vote of confidence" from the Board to continue the
utilization of the Financial Consultant's services as our "Remote Chief Financial Officer" for a period of six
(6) months. The Financial Consultant is a highly qualified Certified Public Accountant contracted to not
only reconcile all financial activities throughout the entire Agency but to continue to train the Finance
Department staff. Additionally, a new database is currently being created to maximize the efficiency of
the agency's overall financial management process.

Section II: SUBSTITUTE COST REQUEST

STOP respectfully requests that the disallowed costs be reduced by the amount of Head Start expenses
incurred during the grant year, but were paid after March 1, 2011 with STOP's own funds. We are
requesting that we be allowed to substitute unallowable costs with allowable costs for which we did not
claim federal funding. Consideration is requested and source documentation is herewith attached for
each of the expenses listed as follows:

Attachment Number/Description                     Amount                    Check No.       Date Paid/Status

2. First Group-Head Start Staff Pavroll           $ 83,711.10               Direct          7/5/11
   with Federal & State Taxes                                               Deposit         Paid in Full
   for 6 days

3. Second Group- Head Start Staff Payroll         $ 28,465.52               Direct          8/25/11
   with Federal & State Taxes                                               Deposit         Paid in Full
   for 6 days

4. Third and Final Group- Head Start Staff        $103,385.40               Direct          9/13/11
   Payroll with Federal & State Taxes                                       Deposit         Paid in Full
   for 6 days                    Total             $215,562.02
                   Less Head Start Funds          -$ 48, 891.45
                      Amount STOP Paid            $166,670.57

5. Virginia Employment Commission                 $ 36,000.00                               11/3/11
   First Group-Head Start Staff Payroll                                                     Partial
   State Unemployment taxes                                                                 Payment
   for 6 days



                                                       3
                                                                                      Page 4 of 7


STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-11-00S01



6. 	 Virginia E.melolfment Commission            $   750.00            12/8/11
    Second Group-Head Start Staff Payroll                              Partial
    State Unemployment taxes                                           Payment
    for 6 days

7. 	 Virginia Emelolfment Commission             $   750.00            1/8/12
    Third Group- Head Start Staff Payroll                              Partial
    State Unemployment taxes                                           Payment
    for 6 days

8. 	 Virginia Emelol/:ment Commission            $ 99,820.64   Bank    3/1/12
     Fourth and Final Head Start Staff Payroll                 Draft   Paid in Full
    State Unemployment Taxes,
    with interest, for 6 days

9. 	                                             $ 3,808.02            12/28/11
       Initial Payment - Head Start                                    Partial
       Portion of Agency-Wide                                          Payment
       Audit Fees

10.                                              $ 3,808.02            1/13/12
        Second Payment - Head Start                                    Partial
        Portion of Agency-Wide                                         Payment
        Audit Fees

11.                                              $ 3,758.20            1/13/12
        Final Payment - Head Start                                     Final
        Portion of Agency-Wide                                         Payment
        Audit Fees

12.                                              $   926.40            1/28/11
       Initial Payment - Head Start                                    Partial
       Invoice for Services Rendered                                   Payment
       To Audit STOP's 2010 Pension
       Plan

13.                                              $ 1,627.50            12/28/11
       Final Payment - Head Start                                      Final
       Invoice for Services Rendered                                   Payment
       To Audit STOP'S 2010 Pension
       Plan

14.                                              $ 1,860.00            7/26/12
       First Payment - Invoice for                                     Partial
       Services Rendered to Audit                                      Payment
       STOP's 2011 Pension
       Plan Audit
                                                     4
                                                                                                              Page 5 of 7


STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-11-00S01



                                                            $ 1,627.50                         9/30/12
Upon receipt of the Final                                                                      Pending
Invoice for Payment for Services                                                               Payment
Rendered to Audit STOP's
2011 Pension Plan. The anticipated
completion date 9/17/12.
Source documentation will be
forwarded to the OIG upon
completion.

15.                                                         $ 45,000.00 (negotiated)           $835.00
      Head Start Food Services                                                                 Monthly
                                                                                               Payment
16. Final Payment to Vendors                                $          1.96                    Final
    for Head Start Closeout                                                                    Payment
    Package

                  Sub-Total.. .................................. $366,408.81 


Section III: UNSUPPORTED COSTS CLAIMED

On page 5 of the draft audit report, it states, "STOP did not provide adequate source documentation to
support 13 transactions totaling $16,974 for various "Other" claimed costs. The transactions related to
invoices from 11 vendors and thus were not isolated errors."

 Response: STOP respectfully requests that the disallowed costs be reduced by $1,205.74.
Consideration is requested and source documentation is herewith attached for this one (1) transaction
as follows:

Attachment Number/Description                               Amount                 Check No.   Date Paid/Status

17.                                                         $ 1,205.74                         11/8/10
                                                                                               Paid in Full



                           Sub-Total............ .............$ 1,205.74 


Section IV: ADDITIONAL COSTS INCURRED

Additionally and as a direct result of STOP's financial liability incurred during the grant year and after
the relinquishment of Head Start, STOP found it necessary to secure the services of a tax consultant
who negotiated with the Virginia Employment Commission for the remaining balance and final payment
of the State Unemployment Taxes due on behalf of former Head Start employees; the balance totaled
$99,820.64.




                                                                  5

                                                                                                                 Page 6 of 7

STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-11-00501



Attachment Number/Description                                    Amount               Check No.   Date Paid/Status

18.                             Tax
      Consultant Fee:

Invoice Number: 00157499                                          $ 1,000.00                      11/1/11
                                                                                                  Partial
                                                                                                  Payment

                       00157499                                   $     829.00                    12/13/11
                                                                                                  Paid in Full

                       00157959                                   $ 1,098.50                      1/12/12
                                                                                                  Paid in Full

                      00158469                                    $     744.50                    2/14/12
                                                                                                  Paid in Full

                      00159023                                    $ 2,186.75                      4/5/12
                                                                                                  Partial
                                                                                                  Payment

                      3909001                                     $ 2,252.35                      5/25/12
                                                                                                  Paid in Full

                 Sub-Total ............................................$ 8,111.10 




GRAND TOTAL OF REQUEST FOR
CONSI DERATION......................................................$375,725.65

Section V: DUPLICATE COSTS CLAIMED

The current STOP Board of Directors and Administrative Staff would like to take this opportunity to
sincerely thank the OIG Audit Team for the manner in which they conducted our audit as well as their
assistance in directing our attention to duplicate payments described as follows on page 6 of the draft
audit report: "STOP claimed duplicate costs totaling $5,609: $3,806 for an invoice for dental coverage
paid on two separate occasions and $1,803 for an invoice for security services paid on two separate
occasions. During the audit, we informed STOP of the duplicate payments. STOP agreed to contact the
vendors to request refunds of the duplicate payments."

Response: STOP is still in the process of negotiating with its former dental insurance provider regarding
the outstanding balance for costs incurred during the month of February 2011. We are attempting to
utilize the $3,806, in question, as an initial payment towards the outstanding balance.

STOP did receive a check in the amount of $1,306.83 as a refund from its security service provider. Funds
received were applied towards payments of smaller debts incurred by Head Start during the grant year in
question.
                                                                       6
                                                                                                           Page 7 of 7


STOP Response - August 1, 2012
OIG Draft Audit Report No. A-03-11-00S01



Upon receipt of the OIG's final recommendations, STOP intends to provide HHS, ACF with an amended
package of closeout costs. The $1,306.83 will be included in this package.

Section VI: GRANT CLOSEOUT COSTS:

As instructed by the Department of Health and Human Services (HHS), STOP submitted its final Head Start
Closeout Package to                       Acting Grants Management Officer, HHS, Administration for
Children and Families (ACF). Region III, on October 31,2011. To date. we have not had any respOnse
from HHS regardi,ng our Closeout Package.

While we thoroughly understand that the draft audit recommendation from the OIG is somewhat a
separate issue from our grant closeout with HHS, we believe it necessary and appropriate to mention it
here that STOP has borne additional costs to include but not be limited to labor expenses which were
necessary to close out the Head Start grant.

The STOP Board and Staff sincerely hope that at some appropriate time, in the near future, expenses such
as these mentioned, will be considered as a means to offset an additional amount of the recommended
disallowed costs reflected in the draft OIG audit report.

Section VII: SUMMARY

The Board of Directors and Administrative Staff of STOP sincerely hope that we have provided strong
source documentation as a solid basis for consideration in substituting allowable costs for disallowable
costs associated with our Head Start Program for Grant Year April 1, 2010 through March 31, 2011. We
are certainly open to respond to any requests for additional information and/or further discussion.

STOP's current Board and staff will continue to re-think, re-evaluate, re-organize and re-invent what we
do to increase agency-wide efficiency, both financially and programmatically. In light of what we have
learned over the past two years, we cannot and will not conduct "business as usual". We will continue to
work diligently to provide services and programs which produce positive outcomes for the individuals,
families and communities we serve while at the same time working towards restoring the public's
confidence by demonstrating our commitment to sound, financial practices and accountability.




                                                    7

                                                                                         Page 1 of 3

                APPENDIX C: OFFICE OF HEAD START COMMENTS



                                              I

November 29, 2012

To:           Stephen Virbitsky, Regional Inspector General for Audit Services
              Office of Inspector General

From:         linda M. Savage, Regional Program Manager
              Office of Head Start
                                                                  /A
              Patricia L. Fisher, Regional Grants Management Officer
              Office of Grants Management

Subject:      CIN A-03-11-00501 Audit Response

Grantee:      Southeastern Tidewater Opportunity Project, Inc.

This statement is in response to the draft audit report submitted to the Department of
Health and Human Services (DHHS), Administration for Children and Families (ACF),
Office of Head Start (OHS) for comments dated November 1, 2012. This draft report
concerning Southeastern Tidewater Opportunity Project, Inc. (STOP), Common
Identification Number (CIN) A-03-11-00501, covered the period April 1, 2010 through
March 31, 2011 and examined expenditures under two separate grants awarded to STOP
during that period, specifically Grant Numbers 03CH2001 and 03SE2001. This
correspondence addresses the Office of Head Start's position on the three findings and
recommendation identified in the draft audit report and any modifications to the initial draft
report submitted

Again, the Regional Office would like to note that prior to the grantee self reporting
financial mis-management, ali records reviewed by the Regional Office showed no
indication of poor financial management practices. It is the practice of the Regional Office
to review audit reports for findings, payment management system reports, and financial
reports on a regular basis and all of these documents gave no indication of the dire
financial situation of this grantee. It should also be noted that once the Regional Office
conducted its initial investigation into the financial status of this grantee the auditor
rescinded their opinion for the prior audit period ending June 30, 2010 and the opinion
was changed from unqualified to adverse.

It is the position of the Regional Office to concur with all adjustments stated in this draft
report. The Regional Office plans to address any costs associated with grant closeout in a
separate correspondence to the grantee. It should be noted that the Regional Office has
reviewed the latest draft audit report and the evidence submitted substantiating the
changes to the first draft and the following conclusions are a result
                                                                                       Page 2 of 3




Finding 1 - Unallowable Costs Claimed:

The draft audit report finding states that STOP recorded unallowable expenditures
totaling$949,399 modified from the previous amount of $950,605: $807,861 in costs
incurred prior to the award period, $120,161 in improperly allocated fringe benefit
costs, $15,768 modified from $16,974 that was not supported by source
documentation, and $5,609 in duplicate payments. As a result the OIG
recommends that ACF require STOP to refund the federal Government $726,746
(adjusted for the current deductions) to the Head Start grant.

OHS and the Office of Grants Management (OGM) concur with the finding of unallowable
costs claimed. The STOP organization contacted the Regional Office prior to the close of
their grant period in 2011 to notify OHS that they had no more monies in their account for
year ending March 31, 2011 and they were unable to make payroll. Upon further
investigation it was determined from review of Payment Management System (PMS)
documents that a significant draw had been made in April 2010 of the grant year in
question. This gave the Regional Office the initial evidence to substantiate that the
grantee's rate of expenditure was inconsistent with prior years and suggested risky
practices of paying prior period costs with current year funding. STOP relinquished their
Head Start grant in March 2011. Once the grant was relinquished no additional charges
to the grant should have been incurred. It is due to this reason that OHS and OGM
concur that the fringe benefits claimed for July and August 2011 are unallocable. In
accordance with all applicable cost principles all costs incurred against the grant should
have sufficient source documentation. It has been substantiated from this draft report that
there are costs with no source documentation or duplicate costs were claimed. OHS and
OGM concur that these cannot be claimed due to their inconsistency with the cost
principles.

Finding 2- Financial Management:

Federal standards for financial management systems (45 CFR § 74.21(b){3)) require
that recipients' financial management systems provide for effective control over
and accountability for all funds, property and other assets. STOP's financial
management system did not provide for effective control over and accountability
for Head Start funds awarded for the audited grant year.

OHS and OGM concur with the finding related to financial management. In February 2011,
the Regional Office received notification of STOP's inability to meet the financial
obligations of the Head Start program. It was determined at that time that STOP did not
provide effective control over and did not provide sufficient accountability for all grant
funds. It was initially determined by the Regional Office that there was gross mis­
management of funds awarded to the STOP Head Start program and this report
substantiates such claims.
                                                                                      Page 3 of 3




Finding 3 - Financial Governance:

Section 642(c) of the Head Start Act requires that grantees establish and maintain a
formal structure for program governance, including a governing body with legal
and fiscal responsibility for administering and overseeing the Head Start agency,
including the safeguarding of Federal funds. The governing body is responsible for
reviewing financial audits and the grantee's progress in carrying out the
programmatic and fiscal responsibilities described in the grant application. Section
642 {d){2) requires grantees to ensure the sharing of accurate and regular
information, including monthly financial statements and the financial audit, for use
by the governing body. STOP's Board did not adequately monitor financial
management practices.

OHS and OGM concur with the finding related to financial governance. On March 15,
2011 the Regional Office received a statement from STOP auditor N. Wesley Pughsley,
Jr., CPA stating that the audit opinion for the prior year was being changed from
unqualified to adverse. It was also noted in the statement from the auditor that "a culture
was created in which Head Start funds were used for non Head Start expenses. Since
there was no accounting for net assets, funds were not being reimbursed back to Head
Start." The above finding provides proper evidence to substantiate this statement from the
auditor. Evidence from this report and the final auditor's statement substantiates that it
was a failure on the Board of Directors that resulted in this culture of mis-management of
funds.

OIG Recommendation -The OIG recommends that ACF require STOP to refund the
Federal Government $726,746 related to the Head Start grant.

It is the joint opinion of OHS and OGM to concur with this recommendation based on the
evidence provided by this investigation. It will be the action of the Regional Office to
pursue the disallowance in the above stated amount.

We are available to meet with you to discuss our position on the above stated findings
and recommendation and to answer any questions you may have. Thank you for the
opportunity to comment on the draft report.

cc: 	 Ann Linehan, Deputy Director, Office of Head Start
      Yolanda Wise, Program Specialist, Office of Head Start
      Tony Hardy, Director, Office of Grants Management
